No. 19-741

 

In THE
Supreme Court of the Anited States

ESTATE OF ESTHER KLIEMAN, BY AND THROUGH
ITS ADMINISTRATOR, AARON KESNER, et al.

Petitioners,
Vv.

PALESTINIAN AUTHORITY, ALSO KNOWN AS

PALESTINIAN INTERIM SELF-GOVERNMENT

AUTHORITY AND PALESTINIAN LIBERATION
ORGANIZATION, ALSO KNOWN AS PLO,

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,449 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 13, 2020.

 

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
